     INSPECfOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         WASHINGTON, D.C. 20436



March 7, 1991


             ltev.iev of A4vt.sory end Assistance Servi.ces
                      end of Data hov.ided to the
                    ~al. P~t Data Systea




The Office of Inspector General has completed the first annual
review of advisory and assistance services and of data provided to
the Federal Procurement Data System (FPDS) . The review is mandated
by the Budget and Accounting Act of 1921, as amended, 31 U.S.C.
1114(b).    The purpose of the review was to evaluate the
effectiveness of the Commission's management controls over advisory
and assistance services, to ensure the accuracy and completeness
of the information provided to the FPDS on contracted advisory and
assistance services, and to provide advance justifications for
advisory and assistance services to Congress with the annual budget
submission.
The law requires that the Inspector General or comparable agency
official conduct this review annually to be submitted with the
agency's budget justification.   Such reviews were not done by a
comparable agency official prior to the establishment of this
office, and due to other scheduling priorities, we did not conduct
a review last year. As the first effort, this is a baseline review
from which progress will be measured in the future.
We calculated that the Commission spent approximately $89,791 on
advisory and assistance services in fiscal year 1990. Over half of
this amount was a contract for auditing services and nearly another
fourth was for a U.S./Mexico Free Trade Agreement Model. A list
of all procurements for advisory and assistance services that we
identified is provided in the attachment to this report.
During our review, we found that the Commission had established
management and accounting controls over advisory and assistance
services, although improvements are recommended in some areas, such
as preparing Checklists and recording information on contract
actions in the procurement and accounting systems (pages 3 to 5).
We identified one contract for over $25,000 for audit services that
was not, but should have been, classified and reported as advisory
and assistance services and also found that contract modifications
were not being properly reported (page 6) .       No requests for
advisory and assistance services were identified in the budget
process and, therefore, information on such services was not
included in the commission's budget for fiscal year 1991 as
required (page 7).
Based on the above findings, we recommend that the Director, Office
of Administration:
          Improve management controls by 1) obtaining an automated
          system   for  recording    contract   actions;   and   2)
          establishing policies that purchase requisitions can only
          be coded as advisory and assistance services if a
          Checklist is attached and that accounting reports of
          advisory and assistance services will be periodically
          reconciled with the Procurement Division (page 5);

          Report the contract actions for auditing services as
          advisory and assistance services to the FPDS as well as
          identify and report all modifications to contracts for
          over $25,000, and amend quarterly FPDS reports as
          necessary (page 6); and
          Modify the budget process in order to identify advisory
          and assistance services (page 7).

The Acting Director, Office of Administration agreed with our
findings and recommendations.   He has completed some corrective
actions and has plans to implement the remaining corrective
actions.   The Acting Director's comments are presented in their
entirety as an appendix to the report.


                                ~~ £ !l,li;;A
                               ~ne E. Altenhofe
                             ~~spector  General
                          TABLE OF CONTENTS


INTRODUCTION AND SCOPE     ............. ......                    1

BACKGROUND     . . . . . . . . ... .. ... . . . .. . .. .          2

FINDINGS AND RECOMMENDATIONS                                       3

MANAGEMENT CONTROLS.                                               3

     Advisory Assistance Services Checklist                        3

     Contract Information . .                                      4

     Accounting System Data                                        4

     Reconunendations                                              5

REPORTING TO THE FPDS .                                            6

     Reconunendations                                              6

BUDGET SUBMISSION .                                                7

     Reconunendation .                                             7


Attachment -     ITC Advisory and Assistance Services in FY 1990
Appendix         Memorandum from Acting       Director,   Office  of
                 Administration, dated March 4, 1991, on Draft Report
The Office of Inspector General has completed the first annual
review of advisory and assistance services and of data provided to
the Federal Procurement Data System (FPDS) .       This review is
mandated by the Budget and Accounting Act of 1921, as amended, 31
u.s.c. 1114(b). The purpose of the review was to evaluate the
effectiveness of the Commission's management controls over advisory
and assistance services, to ensure the accuracy and completeness
of the information provided to the FPDS on contracted advisory and
assistance services, and to provide advance justifications for
advisory and assistance services to Congress with the annual budget
submission.
Our review was conducted in November and December 1990. The field
work was performed at Commission headquarters in Washington, D.C.
in the Office of Administration, particularly in the Offices of
Finance and Budget, Management Services, and Personnel. We
evaluated the Commission's efforts to comply with legal
requirements to submit budget information on consulting services,
guidance issued by the Office of Management and Budget (OMB) in
Circular No. A-120, Guidelines Issued for the Use of Advisory and
Assistance Services, dated January 4, 1988, and Chapter 304 of the
Federal Personnel Manual (FPM) on Employment of Individual Experts
and Consultants, dated January 22, 1982.
We reviewed Commission policies and procedures for preparing the
Commission's annual budget submission to Congress, reviewing and
approving requests for advisory and assistance services, reporting
related data to the FPDS, and maintaining a system to account for
and monitor the costs of advisory and assistance services.      We
interviewed staff and officials responsible for carrying out these
procedures. We also examined contract actions and purchase orders
executed in Fiscal Year (FY) 1990, quarterly reports submitted to
the FPDS for FY 1990, internal management reports, and the
Commission's annual budget submissions to Congress.
The Procurement Division classified nine purchase orders issued in
FY 199 0 as· advisory and assistance services. These purchase orders
totalled $37,885 in obligations, a small portion of the
Commission's total procurement obligations of $1,052,211.         No
contract actions over $25,000 were classified as advisory and
assistance services. No consultants or experts were hired under
personnel authority by the Commission during FY 1990.
This review was performed in accordance with applicable generally
accepted government auditing standards. Accordingly, the review
included an examination of internal controls and other auditing
procedures that were considered necessary under the circumstances.


                                 1
In summary, OMB Circular A-120 defines advisory and assistance
services as those services acquired from non-governmental sources
by contract or by personnel appointment to support or improve
agency policy development,      decision-making,   management,  and
administration, or to support or improve the operation of
management systems.      Such services may take the form of
information,   advice,    opinions,    alternatives,   conclusions,
recommendations, training, and direct assistance.    A good deal of
judgement is required in classifying items as advisory and
assistance services due to the complexity of the definition.
Advisory and assistance services evolved from an earlier category
called "consulting services".     Another term derived from the
earlier category is "consultants and experts".    Both terms are
still frequently used although they are technically a subset of
advisory and assistance services.
Federal agencies are required to apply special controls to the
acquisition of advisory and assistance services in accordance with
guidelines set forth in OMB Circular No. A-120 and FPM Chapter 304.
In July 1988, the Chairman designated the Director, Office of
Administration as the agency official responsible for overseeing
the acquisition of advisory and assistance services. The Director,
Office of Administration subsequently notified the Commission and
Office Directors of new procedures for requesting such services.

New controls were instituted, including a requirement that an
"Advisory Assistance Services Checklist" be completed and accompany
requests for such services.      All requests for advisory and
assistance services, regardless of value, must be certified by the
Chief of Procurement and the Director, Office of Management
Services as complying with Federal Acquisition Regulations and OMB
Circular A-120.   Requests up to $25,000 must be approved by the
Director, Office of Administration. The Chairman must approve all
requests that exceed $25,000 or occur during the fourth fiscal
quarter.
All contract actions for advisory and assistance services valued
at over $25, 000 and subsequent contract modifications must be
reported to the FPDS on SF 279 in accordance with General Services
Administration procedures.   Advisory and assistance services for
under $25,000 do not have to be individually reported to the FPDS.

The Director, Office of Administration submits a weekly report to
the Commission that includes data on selected procurement actions.
Two categories, Contracts Awarded to Consultants and Experts
(regardless of dollar amount) and Contracts Awarded for Economic
"Consulting 11 or Editorial Services (regardless of dollar amount)
included advisory and assistance services.

                                 2
We found that the Commission had established management and
accounting controls over advisory and assistance services, although
improvements are needed in some areas, such as preparing Checklists
and recording information on contract actions in the procurement
and accounting systems.     We identified one contract for over
$25,000 for audit services that was not, but should have been,
classified and reported as advisory and assistance services and
also found that contract modifications were not being properly
reported. No requests for advisory and assistance services were
identified in the budget process, and, therefore, information on
such services was not included in the Commission's budget
submission for FY 1991.



In general, we found that the Commission had established management
and accounting controls over advisory and assistance services and
the Director, Office of Administration had issued guidance to the
Commission and staff. However, we found that Advisory Assistance
Checklists were not always properly completed, information on
contract actions was not on an automated system, and advisory and
assistance services were not separately identified in the FY 1990
accounting codes but can be in the new accounting system which is
being installed in FY 1991.

Advisory Assistance Services Checklist
The nine procurements identified by the Procurement Division as
advisory and assistance services did have the required Checklist
on file.    However, only two of the Checklists were properly
completed.
The Checklist, which is to be submitted with the purchase
requisition, has instructions for completion on the top half of the
first page. Requestors are told which items to complete and there
is even an emphasis on i tern 4 on planned uses and i tern 5 on
prohibited uses.    The instructions also detail the approvals
required. our review of Checklists for nine procurements found:
     The Checklists for four fourth quarter procurements were
     prepared after the end of the FY, two did not indicate the
     planned use (i.e., in item .4), none indicated the services
     were not being used improperly (i.e., in item 5), and none
     were signed by the Director, Office of Administration or the
     Chairman.


                                 3
     One Checklist applicable to three fourth quarter procurements
     was not signed by the Director, Office of Management Services
     or the Director, Office of Administration. The Chairman had
     not approved the Checklist, but had approved a memorandum
     requesting the procurements.
The Director, Office of Management Services said that the proper
completion of these forms was overlooked in the rush of year end
business and other contributing factors. He observed, as we had
earlier, that the Checklist requires a much higher level of
approval than for other procurement actions. The Commission has
the authority to establish the approval requirements on requests
for advisory and assistance services, and perhaps would want to
review the levels required based on this year's experience.

Contract Information
 The contract information was not maintained on an automated system,
.necessitating file reviews in order to obtain information needed
 to conduct our review. While adequate information was provided in
 a timely manner by the Procurement Division, we believe a manual
 system has many drawbacks. First of all, file searches are time
 consuming and subject to error or intentional deletion of items.
 Sometimes, the exact data desired requires too much effort to
-obtain, and if questions arise on the initial data, another file
 search may be required for followup.
The Procurement Division had a manual system to record contract
awards.   A handwritten log was kept in order to identify the
sequential contract numbers.    Modifications executed during the
year were not recorded centrally.     This system was considered
adequate considering the relatively few contract actions processed
every year.
In order to assemble a list of procurements of advisory and
assistance services, a Procurement Division employee reviewed the
contract files and weekly management reports. All open contracts
were identified by manually screening the contract files. A list
of all FY 1990 contract modifications would also have required
screening the contract files; instead we used the reports submitted
to FPDS that identified all contract actions over $25,000.
The Procurement Division has been considering the acquisition of
an automated information system for contract actions.     This new
system should be able to list all contract actions executed during
a given time period, identify all open contracts, and list
contracts by assigned codes (such as assistance and advisory
services).


                                 4
Accounting System Data
We found that the accounting codes used in FY 1990 did not
separately identify expenditures as advisory and assistance
services, but appropriate codes are available in the accounting
system being implemented in FY 1991. New controls on coding items
and reviewing accounting reports will help to ensure procurements
are properly classified as advisory and assistance services.
The Office of Finance and Budget is responsible for assigning an
accounting code to all approved purchase requisitions. A code was
not established for advisory and assistance services, although
these would mostly have been recorded in two codes: 25025 "Other
Services- Consultants" and 25040 "Audit Review Services". These
were subsets of a larger category Miscellaneous services.
The new accounting system that is being implemented in the
Commission in FY 1991 has a category for advisory and assistance
services.  There are four subcategories (codes 2571/2/3&4) that
relate to guidance provided in the revised OMB Circular.
We believe two steps would ensure that items were correctly coded
as advisory and assistance services. First, 25 7 0 codes should only
be assigned when a Checklist is attached.         In the past, the
Checklists were sent with the purchase requisitions to the Office
of Finance and Budget. However, the Office of Finance and Budget
did not equate the presence or absence of a Checklist as impacting
on whether to code the item as advisory and assistance services.
Second, we believe the Procurement Division should periodically
review the accounting reports for advisory and assistance services.
The Procurement Division received the individual purchase orders
with the assigned object class, but did not see the accounting
reports that centrally listed all i terns.      These reports were
reviewed by the Director, Office of Finance and Budget, as the cost
center manager.

Reconunendations
We recommend that the Director, Office of Administration:
     1.   Obtain an automated system for recording contract actions
          that will provide needed man~gement reports; and
     2.   Establish policies that purchase requisitions can only
          be coded as advisory and assistance services if a
          Checklist is attached and that accounting reports of
          advisory and assistance services will be periodically
          reconciled with the Procurement Division.


                                 5
We found that one contract for over $25,000 for audit services was
not, but should have been, classified as advisory and assistance
services. As a result, the required justifications and approvals
were not obtained and the contract award and subsequent
modifications were not properly reported to the FPDS.
OMB Circular No. A-120, paragraph 5.A(3), specifically identifies
auditing services as advisory and assistance services. Contract
number ITC-CN-90-00003 for auditing services was awarded on
February 16, 1990, for $48,739.02. Procurement officials said they
were not aware that auditing services were now considered to be
advisory and assistance services. Auditing services had not been
considered consulting services under the prior OMB guidelines.
Two modifications executed on the contract should also have been
reported as advisory and assistance services but were not.      The
modifications were for deferring a task for a decrease in the award
of $22,833.08, and an addition of an optional task with an increase
in the award of $26,000. The latter modification was reported to
the FPDS but was not coded as advisory and assistance services.
The first modification was not reported to FPDS because the
Procurement Division does not report any contract modifications
for under $25,000. The FPDS Reporting Manual clearly states that
"Contract actions for awards with an anticipated award value over
$25,000, including modifications to those awards (for at least
$501. l, shall be reported".     We did not identify how many
modifications other than the one on the audit services contract
should have been but were not reported.

Recommmendati.ons
We recommend that the Director, Office of Administration:
     1.   Report the contract actions for auditing services as
          advisory and assistance services to the FPDS;
     2.   Identify and report all modifications to contracts with
          anticipated awards of over $25,000; and
     3.   Amend quarterly FPDS reports as necessary.




                                 6
We found that the Commission had not submitted information on
advisory and assistance services to Congress in the FY 1991 budget
package as required by law. Furthermore, the budget call did not
provide instructions on providing this information.
The Budget and Accounting Act of 1921, as amended, 31 u.s.c. 1114
states that the head of each agency shall include in the annual
budget justification:
     1.   Amounts requested for consulting services;
     2.   The appropriation account from which the amounts are to
          be paid; and
     3.   A description of the need for the consulting services,
          with a list of the major programs requiring those
          services.
The Director, Office of Finance and Budget said that no information
of this nature was included in the FY 1991 budget package because
no requests for these services were submitted by Office Directors
in response to the annual budget call. In actuality, the request
for audit services was submitted, but it was not identified as
advisory and assistance services.
The annual budget call requests that Office Directors develop their
resource needs and justifications. The call does not request that
advisory and assistance services be specifically identified, nor
is any guidance provided on what should be identified as advisory
and assistance services.
At approximately the same time that the budget call is issued, the
Procurement Division makes a call for advanced planning purposes.
Virtually the same requests made by Office Directors in their
budget submissions are sent to the Procurement Division.      Once
again, no guidance is provided or request made to identify
procurements as advisory and assistance services. Possibly, the
Procurement Division could identify advisory and assistance
services from the descriptions submitted, but this was not done.

Recommendation
We recommend that the Director, Office of Administration modify the
budget process in order to identify advisory and assistanc~
services.




                                 7
                                                     Attachment

         ITC ADVISORY AND ASSISTANCE SERVICES IN PY 1990


Name and Number         Amount          Purpose


Cotton & Company         $51,906   Audit Services
ITC-CN-90-00003

Jaime de Melo            $ 2,000   Written Review of a Computable
World Bank                         General Equilibrium Model
ITC-OP-90-0671

Shantayanan              $ 2,000   Written Review of a Computable
Devarajian                         General Equilibrium Model
ITC-OP-90-0675

Gene Gruver              $ 2,000   Written Review of a Computable
ITC-OP-90-0676                     General Equilibrium Model
David R. Holst           $20,000   Develop a U.S./Mexico
ITC-OP-90-0699                     Free Trade Agreement Model

Stephen Smith            $ 4,096   Complete a Section of
ITC-OP-90-0700                     a Competitive Study

Duffy Associates         $ 2,689   Design Services Annual Report
ITC-OP-90-0164

Pat Taylor, Inc.        $ 2,100    Design Services
ITC-RB-90-0376

Graham Associates       $ 1,500    Design Services
ITC-RB-90-0377

Gary Reardon            $ 1,500    Design and Format Services
ITC-RB-90-0586


Total amount             $89,791
                                                                       Appendix



                                                            AD-Q-167


------------ ------·----

UNITED STATES INTERNATIONAL TRADE COM:tviiSSION
----·-- · - - -                   - - - - - - - - -----·-
                     WASHINGTON. DC 20436



March 4, 1991


MEMORANDUM


TO:        Inspector General                        \1:: ~-"9::;
FROM:      Acting Director, Office of   Administration~' ~
SUBJECT:   Draft Report, "Review of Advisory and Assistance Services
           and of Data Provided to the Federal Procurement Data System"
As requested by your memorandum dated February 4, 1991 (IG-Q-016),
submitted as an attachment to this memorandum is the Office of
Administration's response to the subject draft audit report issued on
February 1991. In accordance with Section 11 of the USITC Directive
1701, the Commissioners have had an opportunity to comment on the
response and the Chairman has approved it. Also attached is
Administration's response to the Chairman's request for additional
information.

Please call me at 252-1131 or Bill Stuchbery at 252-1135 if you have
any questions.


Attachments


cc: Director, Office of Finance and Budget
    Director, Office of Management Services
                                                   AD-0-127



UNITED STATES INTERNATIONAL TRADE CO~I.\IISSIO:\

                     \V :\SHI:\GTO:\. DC :!0-!36




February 22, 1991

TO:        Acting Chairman Brunsdale               ~

FROM:      Director, Office of   Administrati~
SUBJECT: Approval of Administration's Comments of the Inspector
         General's Draft Audit Report: "Review of Advisory and
         Assistance Services and of Data Provided to the Federal
         Procurement Data System"

On February 4, 1991, the Inspector General submitted copies of the
subject audit to each Commissioner by memorandum (IG-0-016). The IG
also requested Administration to review the draft audit report and
make comments if necessary. In accordance with Section 11 of USITC
Directive /11701, "Audit Policies and Procedures", the Office of
Administration has sent its comments in draft to the Commissioners,
other than you as Acting Chairman, for review. Commissioners Rohr,
Lodwick and Newquist did not have any comments at this time.
Confirmation was made with their staff assistants.
This audit contains a number of findings and other conditions which
are considered non-material, but ~here policies and procedures need
to be refined or appropriate steps :aken to correct the situation.
The Office of Administration agrees -:th the Inspector General's
recommendations, but with the fo::=w:ng comments:
      1.   In the introductory le:~er, (page 2, first paragraph, last
           sentence) should read, "No :-equests for advisory and
           assistance services were :=entified in the budget process
           and, therefore, infor~A~~~n on such services was not
           included in the Commiss:cn's budget for FY 1991 as required
           (page 7)."
      2.   In the introductory let:er, (page 2, last paragraph, last
           sentence) should read, "~e Director said the determination
           whether a particular ex?ense is to be classified as advisory
           and assistance services will be made by the Procurement
           Division, so the Advance Procurement process will be
           modified to identify such services for inclusion in future
           budgets"
   3.   . On page 3, the last sentence in the first paragraph should
          read, "No request for advisory and assistance services were
          identified in the budget process, and, therefore,
          information on such services was not included in the
          Conunission's budget submission for FY 1991."
   4.    On page 3, second paragraph should have, "which is being
         installed in FY 1991", added to the last sentence.
   5.    On page 3, third paragraph should read, "The 10
         procurements", instead of "The 9 procurements".
   6.    On page 3, fifth paragraph should read, "The Checklist for
         four fourth quarter procurements were prepared after the end
         of the FY, two did not indicate the planned use (i.e. in
         item 4), none indicated the services were not being used
         improperly (i.e. in item 5), and none were signed by the
         Director of Administration or the Chairman."
   7.    On page 3, last paragraph, second line, "Director of
         Administrative Services" should read "Director of Management
         Services".
   8.    The last paragraph on page 4 should read, "We found that the
         accounting codes used in FY. 1990 did not separately identify
         expenditures A§. advisory and assistance services,"
   9.    On page 5, third paragraph, second line, "FY 1990" should
         read "FY 1991".
Corrective Action Plan
   1.    Establish an automated system for recording contract actions
         that will provide needed management reports.
         Due Date:   Not later than September 30. 1991
   2.    Establish policies that purchase requisitions can only be
         coded as advisory and assistance services if a Checklist is
         attached and that accounting reports of advisory and
         assistance services will be periodically reconciled with the
         Procurement Division.
         Due Date:   Not later than September 30. 1991
                     (accounting codes have been established)

   3.    Report the contract actions for auditing services as
         advisory and assistance services to the Federal Procurement
         Data System (FPDS).
         Due Date:   Not later than February 28. 1991
   4.    Identify and report all modifications to contracts with
         anticipated awards of over $25,000.
         Due Date:   Completed
     5.     Amend quarterly FPDS report as necessary.
            Due·Date:   Completed

     6.     Modify the budget process in order to identify advisory and
            assistance services.
            Due Date: June 3, 1991 (will be completed in the next
            budget cycle).
In accordance with Section 11 of USITC Directive #1701, submitted
herewith are Administration's comments and corrective action plan for
your approval before they are sent to the Inspector General and a
copy of the draft audit report. Since the IG has set a deadline of
March 4, 1991, for receiving a final response, it would be
appreciated if you could indicate your approval, or modification, by
the close of business Friday, March 1, 1991.


Approved:~
Modify.~$    follows: ___________________________________________

,4."~P~
t.

      Acting Chairman

Attachment

cc: Director,   Office of Management Services
    Director,   Office of Finance and Budget
    Director,   Office of Personnel
    Inspector   General w/o attachment
  CHAJRMAN




  UNITED STATES INTERNATIONAL TRADE COMMISSION

                       WASUINGTON. D.C. 20436



February 26, .1991

TO:          Director, Office of Administrati~         ~~

FROM:        Acting Chairman Anne E. Brunsdale    ~~
SUBJECT:     Administration's Comments on the Inspector
             General's Draft Audit Report: "Review of
             Advisory and Assistance Services and of Data
             Provided to the Federal Procurement Data
             System"

on February 22, 1991, you requested (AD-0-127) my
approval on your response to subject audit. Please
provide the following information for my consideration:
        Corrective Action Plan item #4 - number
        of modifications approved and reported
        Corrective Action Plan item #5 - copy of the
        amended FPDS report.
                                                  AD-o-150



UNITED STATES INTERNATIONAL TRADE COMMISSION

                    WASHINGTON. DC 20436




Peb~     27, 1991

TO:      Acting Chairman Brunsdale

PROM:    Director, Office of   Mtsdm.stration~ l14..fv!'C;:61£J
SUBJEcr: Approval of Administration. s Ccmaents of the Inspector
         General's Draft Audit Report: "Review of Advisory and
         Assistance Services and of Data Provided to the Pederal
         Procurement Data System"

this is in response to your request of Peb~ 26, .1991 for
additional information ~oncerning the above subject draft audit
report response and corrective action plan. Attached is a copy of
the rPDS report vhich includes all modifications to contracts with
anticipated awards of over $25,000, and amends !'Y 1990 quarterly
reports. this report provides documentation of the completion of
Items 4 and S iD Admdniatration's corrective action plan.



Attacbmant

cc: Director. Office of lfaDasemant Services
    Director • Office of !i.Dance and Budset
    Director. Office of PaJ:"scmnel
    Cld.ef. Procurement Division
                          DATA TRANSMITTAL MEMORANDUM

Fedef81 Procurement Data Center                                  Date       Feb~ 22, 1991
4040 N. Falrfa Drive, Suite 100
Arlington, VIrginia 22203

SUBJECT: Submlealon of FPDS Reporta from U.S.              Intemational Trade       Conni.ssion
                                                         (Aitncy}

Attached are the quarterly reporta tor        First Quarter, 1991
                                                (Quartet and flectl reat}
Check the •ppllcable blocka:
A. (X ] Individual Contract Action Report ICAR (SF 278).
                  [ ) L Tape (Reel Number
                         (lndude SF 277)
                                              -----------------J
                  ( ] 2. floppy Disk (No. or disks ~----~---..~----~·
                  (X) 3. Document (SF 279) (No. or Documeou fsee attached smmary );heet.)
                  ( J 4. Total No. or Records ---~~----------J
                  (X) 5. Total Net Dollan S See attached SUJJDar:'V sheet. ).
                  [ ) 6. No reportable actions this quaner.
                  [ ) 7. This Depanmeai/Apnc.y is not required to repon SP 279 data.

B. k J Summary Contract Action Report ($25,000 or leaa) (SF 281).
            lxl 1. 1be repon Is enclosed.
           I ] 2. No reponable acdoas Ibis quaner.
           [ ] 3. 1bls DepartmeDC/A&eacy Is not required to repon SF 281 data.

C. 1x1 Individual Contract Report for Contract• Exceeding $1&0,000 for the Purchaae of
       Suppllee and Equipment (Non-appropriated lunda).
              I ) 1. Document (No. of Documenu
              lxl 2. No reportable actions tb1t quaner.
                                                       ------------.r
              ( ) 1 1bls DepartmeaC/A&aCJ Is not reqaiued to rcpon forelaa uade datL
D.   k]     lAtter Report of Total Procurement of Suppllee and Equipment.
                   lxl L Tile letter II enclosed.
                   ( ) 2. No reportable ac:tloM Ibis quncr.
                   I ] 3. '11111 Depar.-.1/Apacy is DOl required to report.
E.   fx J   COIIINCtlng Olllce Code Report.
                  I J 1. Total No. or Repons. _ _ _ _ _ _ _ _ _ _ _                         --...~



                  lxl 2. No repona IIIII qaaner.
F. (X J lntlnlll Rav•nue Semc. (IRS) Information Aetume purauant to 21 USC IOIOM.
               flee Dlla flawi.., ........_ • Ccc• 11r11J
G.   De ]   Report on Contract Awanle to Public or Prtvate Organlzatlona for 1M Handicapped
            (Shder.cl Workahope).
                 ( ) L 'l1le letter repon II enclosed.
                 ( J 2. Tile taronnatlcm II oa tbe ICAR tape.
                 ( J 1 No tepanable acdoDI tbb quancr.
                                                   '
                    ATTACHMENT TO DATA TRANSMITTAL MEMORANDUM
'
    #   OF 279's.    QUARTER            FISCAL YEAR             DOLLARS

          7             1                  1991                 $429,000.00
          1             4                  1990                 $ 20,000.00
          2             3                  1990                 $ 49,000.00
          1             2                  1990                 $ 49,000.00
          1             1                  1990                 $220,000.00
